THE VOWELL LAW FIRM

6718 ALBUNDA DRIVE
KNOXVILLE TENNESSEE 37919
TELEPHONE 865.292.0000 FAX 865.292.0002

DONALD K. VOWELL

don@vowell-law.com
CERTIFIED CIVIL TRIAL SPECIALIST

September 24, 2021
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:
Branch Banking and Trust Company, Petitioner v. Sevier County Schools Federal
Credit Union, et al., Respondents
No. 21-365
Dear Mr. Harris:
On behalf of the respondents in the above-referenced matter, I write to request an
extension of time for the brief in opposition. A petition for a writ of certiorari in the
above-entitled case was filed in the Supreme Court of the United States on September 7,
2021, and placed on the docket September 9, 2021. Unless the Court grants an extension,
a brief in opposition is due on or before October 12, 2021. On account of counsel’s
current workload, intervening obligations, and other uncertainties existing due to the
ongoing need to address difficulties relating to COVID-19, I respectfully request,
pursuant to Rule 30.4 and the Court’s March 19, 2020, Order, an extension of thirty (30)
days, until November 11, 2021, to file our brief in opposition. In seeking this request, it is
noted that the opposing party does not object to the extension of time.
We thank the Court for its consideration and look forward to receiving a response.
Very truly yours,
/s/ Donald K. Vowell
Donald K. Vowell
cc:

Thomas Henderson Dupree Jr., Counsel for Petitioner/Counsel of Record
John S. Hicks, Counsel for Petitioner
Christopher E. Thorsen, Counsel for Petitioner
Nicholas W. Diegel, Counsel for Petitioner

